HHS/OIG-Audit--"Audit of Title IV-E Foster Care and Other Grants' Payments for Child Care Claims at the North
Carolina Department of Health and Human Services' Division of Child Development, (A-04-98-00123)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Title IV-E Foster Care and Other Grants' Payments for Child Care Claims at the North Carolina Department
of Health and Human Services' Division of Child Development," (A-04-98-00123)
April 30, 2001
Complete
Text of Report is available in PDF format (6.5 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that North Carolina claimed unallowable costs of approximately $48.2 million for child care
under Title IV-E Foster Care and Other grants from October 1, 1993 through October 31, 1997. In general, we found that
a consultant hired by the State did not properly determine the allowability of claims before assigning them to Title IV-E
and Other Grants child care and the State did not adequately review the claims before submission to the Federal Government.
In addition, the State's accounting system was not set up to identify which grant was used to pay for a child's care and
the State did not maintain records that showed to which grant these payments were initially and subsequently assigned.
In addition to a financial adjustment for $48.2 million, we recommended that the State develop accounting procedures that
identify the grant used to pay for a child's care, maintain documentation to support eligibility for all child care claims
for required periods, and monitor its consultants to ensure that only allowable child care claims are filed for Federal
financial participation.